             UNITED STATES GOVERNMENT LIBRARY OF CONGRESS
              Memorandum                         Office of the Inspector General



TO:           James H. Billington
              Librarian of Congress                                                May 3, 2005


FROM:         Karl W. Schornagel
              Inspector General

SUBJECT:      Preliminary Survey of the Cataloging Process Audit No. 2005-PA-103


We recently performed a preliminary survey of cataloging processes within the Library. Based
on this survey, we determined that a full audit will not be cost effective. Although we
identified inefficiencies in the cataloging workflows, underutilization of technicians for copy
cataloging and cataloging-in-publication (CIP) verification, and shortcomings in the
management information system, we determined that the Cataloging Directorate is effectively
addressing these deficiencies. Management is reviewing the same areas we would were we to
conduct a full audit.

We confirmed that Cataloging management is undertaking a complete review of its polices and
procedures, and rethinking how it does business, including better aligning its cataloging
products with the needs and demands of a changing world and society. Based on our survey
work, we believe that the numerous work groups established by management are effectively
assessing how to streamline and reengineer cataloging operations and processes. Moreover, we
were pleased to find that management is investigating privatization activities and processes
such as contracting out, joint ventures and partnerships, outsourcing, volunteer activities, and
service shedding (reducing the level of service provided or stopping the service altogether).

We believe a fundamental review of the cataloging programs, processes, and policy areas will
serve the vital function of updating and modernizing the cataloging programs and priorities to
meet current and future challenges. The Cataloging Directorate's ongoing assessment of itself
is comprehensive (see attachment).

Notwithstanding the initiatives currently underway, we have two major concerns. First, the
Cataloging Directorate's inability to effectively use the Copyright catalog record, at least
where data elements between records may be common. Joint Working groups have been
convened to discuss this issue, but no useful changes have taken place. Second, we are
concerned with delays in implementing needed changes. This is due in part to the
unreasonably lengthy bargaining sessions with Locals 2910 and 2477. For example, on
September 30, 2004, the Cataloging Directorate's Strategic Workflow Initiatives Group
(SWIG) recommended establishing pilot projects to explore transferring copy cataloging
functions to technicians. As of April 1, 2005, management and the unions had not finalized an
agreement that would allow the pilots to begin. The SWIG report effectively addressed this
problem area: "[m]embers of SWIG who have extensive experience in labor-management
relations recommend that the bargaining for the next master contracts include articles setting
parameters for pilot projects. The idea behind this recommendation is to develop a common
understanding between Labor and the BA [Bibliographic Access] divisions of what can or
cannot be done in a pilot project, so that the divisions can undertake well-defined short-term
experiments on relatively short notice, without infringing on the rights of staff members." We
strongly endorse this recommendation. In order to be able to adapt to a rapidly changing
environment, the Library must have the flexibility to conduct pilot projects and experiments
within a reasonable period of time and without having to engage in lengthy negotiations with
the unions.

Another example of the difficulties management faces trying to enact changes involves
implementing the "whole book cataloging" concept. According to Cataloging management, the
agreement reached with Local 2910 allows staff to either remain in their specialized areas
(Name, Subject, or Descriptive) if they choose to do so, or become "whole book" catalogers.
The agreement did not require anyone to become a "whole book" cataloger. The result is that
the Cataloging Directorate has divergent, and often inefficient, workflows.

In summary, we applaud the Cataloging Directorate's present efforts. Taking a hard look at
existing programs and carefully reconsidering its goals and its financing is a challenging task.
Decreases in staffing, technological advances, and changes in the way the public uses libraries
prompted the Cataloging Directorate to examine the advisability, affordability, and
sustainability of existing programs, policies, functions, and activities throughout the entire
cataloging process. The nature and magnitude of the adjustments that need to be considered are
not amenable to "quick fixes;" rather they will likely require an iterative, thoughtful process of
disciplined changes and reforms over several years. Nonetheless, the magnitude of and
potential disruption from related changes can be mitigated if the necessary policy changes are
made sooner rather than later. The SWIG report highlighted the urgency of these changes: "[i]t
is impossible, however, for the Bibliographic Access divisions to continue with business as
usual in the face of burgeoning workloads, dwindling resources, and growing user needs for
access to digital content and customized services."

Although we elected not to perform a full-scale audit, the OIG stands ready to assist the
Cataloging Directorate with the much-needed review of existing programs, policies,
functions, and activities. Furthermore, we plan to conduct a follow-up review to assess
progress in weeding out programs and policies that are outdated or ineffective, and
improving the efficiency of the policies and procedures retained.


cc:           Deputy Librarian
              Associate Librarian for Library Services
              Deputy Associate Librarian for Library Services
              Director for Acquisitions and Bibliographic Access
                   Cataloging Initiatives to Review its Polices and Procedures,
                               and Rethink How it Does Business

Copyright/Library Services Joint Issues Group
Although this group is effectively addressing improving workflows, we found that efforts to
augment and better use the Copyright cataloging records for the Library's cataloging have not been
successful.

Strategic Workflow Initiatives Group (SWIG):
SWIG presented a detailed fmal report and recommendations to the Bibliographic Access
Management Team on September 30, 2004. The SWIG group believes its recommendations can
achieve efficiencies in the areas of CIP galley cataloging, CIP verification, copy cataloging, use of
data for cataloging from nontraditional sources, cataloging policy and documentation, simplification
of shelf listing, and streamlining of the subject heading proposal process.

STARS Replacement Group:
STARS is the management reporting system used to record and evaluate the workload of each of the
Cataloging teams, as well as the time required to complete the process. Management has identified
instances of possible statistical under-reporting. Staff we interviewed also believed that team leaders
might not be recording data consistently.

Copy Cataloging Pilot Projects:
Plan to implement two pilot projects (one in Arts and Sciences Cataloging Division and one in
History and Literature Cataloging Division) to assign cataloging technicians responsibility for
searching for and copying cataloging done by OCLC and RLIN

CIP Review Group
The first meeting of this group was on Monday, March 25, 2005. Initiatives already underway to
make the CIP processing more cost efficient include:
   CIP New Books Project: This program is underdevelopment and probably a year a way from
        starting. Book publishers will be able to provide summaries, cover art, tables of content,
        sample text, etc. of forthcoming books with their application for CIP data.
   Text Capture and Electronic Conversion (TCEC): Catalogers will be able to cut and paste
        from the CIP Record from the Publisher that has been input into the ILS.

Cataloging Workflow and Organization Joint Issues Group.
An outcome of this group was the Cataloging in Publication Division's decision to implement
streamlined book staging procedures that leveraged the benefit of
Recommending Officers' review of new receipts in Copyright to eliminate a cumbersome and
expensive second review in the CIP work area.

Better using the work from outside sources:
   CIP is working with Cornel University and Northwestern University to submit a full catalog
       record for the materials published by their presses.
   The GOAL W.2 Working Group is looking into downloading OCLC records each night
       and using this information for the CIP verification.
   Project with Casalini Libri, the Library's Italian book dealer. Cataloging Directorate sent
       catalogers to Italy to train Casalini's catalogers to do all cataloging including subject heading,
       binding, and adding LCCN. Casalini may provide the Library with these enhanced records for
       a fee substantially less than the cost of full in-house cataloging.
    • Special Material Cataloging Division is working with AMG and MUZE to supply music
       catalog records.

The Processing Rule Analysis Group:
The group proposed that the Library develop a new level of cataloging within the MARC/AACR
context, called "access level," to provide a more appropriate level of control to some digital
resources at a lower cost than full cataloging treatment. It was clear to the Group that the Library will
not have the bibliographic control resources to create MARC/AACR records for all digital objects.
By adopting access level cataloging, the group believed that the Library would cost effectively
minimize catalogers' time-consuming but often futile efforts to locate traditional descriptive elements
on digital resources, while preserving the ability to perform subject and keyword retrieval on these
resources. From December 2004 to January 2005, the Bibliographic Access Divisions conducted
tests to determine whether the resulting records would meet these objectives: functionality, cost-
efficiency, and conformity with current standards. It concluded that the library would derive
substantial cost savings from access level cataloging, with no appreciable loss of access for
searchers.
